SUPREME COURT OF THE UNITED STATES

Supreme Court Casa non S76 :
Shacen Lopen a Stabe of Cali Cocnio

(Petitioner) (Respondent)
IDo NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court, . :
Please check the appropriate boxes;
Please enter my appearance as Counsel of Record for all- respondents,

( There ute multiple respondents, and I do not represent all respondents. Please enter iny
appearance as Counsel of Record for the following respondent(s):

 

 

5X Tam a member of the Bar of the Supreme Court of the United States,

 

‘Lam aot presently a member of the Bar of this Court, Should a response be requested, the response
will be filed by a Bar member.

Signature Tate! Mshall .
viw___/ 3 J 2020 _
(Type or print) Name he bert To A a { acsha Vt

& Mr. Ms. (J Mrs. [9 Miss :
Fine Codi Co cnre Det. of Sughice : OF Cree of the (Hocrey General .
sadres 300 T street 5 Po Box Q4y2ss”
City & State Sactamebe Ch Zip T{ZY4 -7SSO
Phone Me 210 7747 nmati fold, Mors hall @ Der, CA. GOV

 

 

 

 

 

 

 

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
If PRO SB, PLEASH INDICATE BELOW THE NAME(S) OF THE RICIPINNXS) OF A COPY
OF THIS FORM, NO ADDIWONAL CERTIFICATE OF SERVICE IS REQUIRED, .
Co Keaneth Brooks . te

$324 Thunder Riclge Ciccle

Roclslin , CA ASTES

Keb@ brooks eate aks . COW
